<html>
<title> - EXAMINING THE IMPACTS OF THE FEDERAL AFRICAN ELEPHANT IVORY BAN AND RELATED STATE LAWS</title>
<body><pre>[Senate Hearing 114-444]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 114-444

                      EXAMINING THE IMPACTS OF THE
                     FEDERAL AFRICAN ELEPHANT IVORY
                       BAN AND RELATED STATE LAWS

=======================================================================

                             FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 20, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-605 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


























               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water, and Wildlife

                     DAN SULLIVAN, Alaska, Chairman
JOHN BARRASSO, Wyoming               SHELDON WHITEHOUSE, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
JEFF SESSIONS, Alabama               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 20, 2016
                            
                           OPENING STATEMENTS

Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........     1
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......     3

                               WITNESSES

Worl, Rosita, PhD., President, Sealaska Heritage, Inc............     5
    Prepared statement...........................................     8
Sweeney, Tara, Executive VP, External Affairs, ASRC..............    18
Silook, Susie, Local Artist......................................    19
Williams, Margaret, Program Managing Director, WWF...............    30
    Prepared statement...........................................    33

                          ADDITIONAL MATERIAL

Statements:
    Sayers Tuzroyluk, Sr., President, Voice of the Artic Inupiat.    53
    Wildlife Conservation Society................................    55
    Vera Metcalf, Eskimo Walrus Commission.......................    56
    Melanie Bahnke, President, Kawerak, Inc.,....................    58
Letters:
    Robert F. Soolook Jr., President, Native Village of Diomede..    64
    Dorthy Barr, Tribal Coordinator, Native Village of White 
      Mountain...................................................    65
    Shawn Arnold, Superintedent, Nome Public Schools.............    66
Resolutions:
    A Resolution Opposing the Inclusion of Walrus, Mammouth, and 
      Mastodon Ivory in African Elephant Ivory Ban in the United 
      States.....................................................    67
    A Resolution in Support of Eskimo Walrus Commission's 
      Opposition of Incuding Walrus, Mammouth, and Mastodon Ivory 
      in African Elephant Ivory Ban Laws in the United States....    69

 
  EXAMINING THE IMPACTS OF THE FEDERAL AFRICAN ELEPHANT IVORY BAN AND 
                           RELATED STATE LAWS

                              ----------                              


                       THURSDAY, OCTOBER 20, 2016

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Water, and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
the Northern Lights room, Carlson Center 2010 Second Avenue, 
Fairbanks, Alaska, Hon. Dan Sullivan (chairman of the 
subcommittee) presiding.
    Present: Senators Sullivan, and Murkowski.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Good afternoon, everybody. I'm Senator 
Dan Sullivan. I'm very honored to be holding an official U.S. 
Senate hearing at AFN, and very honored to have so many friends 
and colleagues, and my Senate colleagues, Senator Murkowski 
here to discuss a very, very important issue for Alaska, for 
the Alaska Native community.
    And this is a hearing of the Subcommittee on Fisheries, 
Water, and Wildlife for the Environment and Public Works 
Committee of the U.S. Senate. And as I mentioned, no better 
place to be holding this hearing than here at AFN where we are 
surrounded by dozens of talented artists that are directly 
affected by the topic we are going to discuss today.
    As a matter fact, my wife, Julie, is here and showed me 
some of the ivory that she's already bought since being here 
this morning.
    So what we're talking about is, I think, a big issue where 
there's a lot of confusion. Earlier this year, the Federal 
Government finalized regulations that tightened trade in 
African elephant ivory, banning most commercial sales outright.
    These regulations have, in turn, unfortunately, and from 
our perspective, misguidedly spawned several State laws that 
broadly expand the types of banned ivories allowed in different 
states, well beyond the Federal regulation.
    And these bans now include walrus and mammoth ivory that 
are commonly used by many Alaska Native craftsmen and others to 
help with the culture and the economy of many of our 
communities and our State.
    While perhaps well-intentioned, these State bans have had 
the unintended consequences of limiting the ability to trade 
authentic articles of Natives handicraft, and in other cases, 
they have created confusion among the buyers who might think 
that importing all forms of ivory is prohibited.
    As a result, this is already beginning to reduce demand for 
authentic Alaska Natives handicrafts and clothing from 
tourists, from Alaskans, from collectors all over the country 
and, indeed, all over the world.
    I want to take a moment and recognize an important issue 
for this country, for the world, and that is that elephant 
poaching and the resulting illegal ivory trade in poached 
species, is a serious problem that needs to be addressed. 
Currently, the United States is doing this with mechanisms like 
the Convention on International Trade and Endangered Species, 
known as CITES, and continued international cooperation to 
conserve elephants as needed. Nobody argues that.
    But today, we will focus on an issue that goes well beyond 
conserving elephants, and, instead, imposes burdens on Alaska 
Natives and other Alaskan artisans without any justifiable 
corresponding conservation benefit for species.
    I've called this hearing to raise awareness of the impacts 
of broadly written State ivory bans and tho--the impacts that 
it has on Alaskans, and to help ensure that, as other states 
look at this issue, they do not move forward with such bans. 
And if they insist on doing that, such bans account for the 
impacts on Alaskans who rely on selling these products for 
their livelihood and cultural engagement.
    As I mentioned, the Fish and Wildlife Service finalized 
their new rule on the trade of African elephant ivory to and 
from the U.S. this past June. This rule, as the Fish and 
Wildlife Service, itself, notes, only impacts elephant ivory. 
It does not apply to Alaska Natives using other ivory or bones 
from animals to produce handicrafts.
    So the Federal regs are clear. However, soon after that reg 
was issued, other states began banning the selling of, quote, 
tooth or tusk from a species of elephant, hippopotamus, 
mammoth, walrus, whale, narwhal, or piece thereof, whether raw 
ivory or worked ivory, unquote. So that's what's happening in 
the states, and that covers all of us.
    By including walrus, mammoth, and whale, among the species 
subject to the ban, states like California and now New Jersey 
and others are starting to get in line, have gone well beyond 
the Federal standard, and have created an environment that is 
having a chilling effect on the Alaska Native handicraft market 
that we see is so vibrant just outside the halls of this 
hearing.
    As you all know, many Alaskan Natives not only rely on 
walrus as an important subsistence food source, but also depend 
on the economic benefits of selling worked ivory. Alaskans who 
realize economic benefits from selling worked mammoth ivory 
found during mining and foraging, also have this opportunity 
and it's not--just not in the craft shows. Just look at 
downtown Fairbanks in terms of what they sell.
    While data is limited on the full economic impact of these 
activities, what is clear is that many in rural and even urban 
Alaska receives significant economic benefits from working with 
and selling these products. In addition, walruses are not 
listed as endangered or threatened under the Endangered Species 
Act. Many people don't know that, but they're not listed.
    And the Marine Mammal Protection Act explicitly allows 
Alaska Natives to harvest walrus for subsistence purposes and 
permits the sale of authentic articles of Native handicraft 
factioned from them.
    States are following the lead of the Federal Government to 
regulate ivory sales. Yet, what seems clear and what this 
hearing hopes to highlight is that--is the restrictions 
pertaining to Alaska Natives, and non-Natives do not further 
the goal of conservation. Our goal here is to try and gain a 
better understanding of how these Federal and State laws affect 
Alaskans, and we want to raise awareness,not only here, but, 
importantly, in all the other states in the country as states 
consider further laws regarding the restricting trade and 
ivory.
    We also want to try to start to get commitments from the 
Federal Government agencies, like NOAA, Fish and Wildlife 
Service, Secretary Jewell who is here, to help us in the 
related NGO's, like the World Wildlife Fund--it's one of our 
witnesses today--to get the word out and push back on State 
laws that are hurting Alaskans, especially Alaska Natives, and 
yet, are having no positive impact on species conservation in 
Alaska.
    So I want to--I'm going to mention our--we have a great, 
great witness panel here today. We have a great turnout. I also 
want to mention we've had a lot of interest just in the last 
couple of days on this hearing, so we're going to keep the 
record for this Senate hearing open for the next 2 weeks, so 
whoever wants to submit testimony, we will get the word out on 
where you can submit that testimony. It's going to be to Pierce 
Wiegard, who is one of my staffers on this issue. His e-mail is 
pierce, p-i-e-r-c-e--wiegard, w-i-e-g-a-r-
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a783b0b6afafaab5a2adedb0a6ada2b7a6eda4acb5ed">[email&#160;protected]</a> (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aadac3cfd8c9cf8787ddc3cfcdcbd8ceead9dfc6c6c3dccbc484d9cfc4cbdecf84cdc5dc">[email&#160;protected]</a>) 
And if you didn't get all that, you can hit up Pierce at the 
end of this hearing.
    But what we--in all seriousness, we want to hear from as 
many Alaskans as possible and just--at the beginning of this 
hearing, for the record, I will submit for the record, the 
testimony of Vera Metcalf from Fairbanks, Alaska, her written 
testimony, and the testimony of Kawerak, Inc. Their written 
testimony for this hearing is going to be submitted for the 
record.
    And before we start with our panel of distinguished 
witnesses, who I want to thank, again, for coming, I do want to 
have the opportunity for my close friend and colleague, the 
Chairman of the Energy and Natural Resources Committee for the 
U.S. Senate, Senator Murkowski to say a few words on this 
important topic. Senator Murkowski.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Murkowski. Thank you, Senator Sullivan, for your 
leadership on this and for convening this important field 
hearing. For those who are not familiar with some of the 
process that goes on in the Senate, an opportunity to have a 
field hearing in one State to gather information for the 
committee record to be considered at a later point in time, is 
really key to the education that goes on.
    I think it's fair to say looking at the friends and the 
faces around the room, that most in this room here, today, 
probably most here in the Carlson Center, know and understand 
the implications of the confusion as you have outlined in your 
statements so clearly, the confusion that will be created and 
then the impact to our artisans,to those who have passed these 
traditions, this craftsmanship, this sharing down for decades, 
for generations, that we lose that.
    But we need to be part of a committed record. We need to 
get this information so that our colleagues who, whether they 
be from New Jersey or California where we are seeing some of 
the--these concerns and its confusion, really play out, so that 
they can understand directly from you as Alaskans.
    So I appreciate you highlighting this at this AFN 
Convention. I appreciate the witnesses and the testimony that 
they will bring. But I do want to reiterate the concern that 
you have raised here. It's one thing to have Federal 
regulations that are clear. And you hear a lot from your 
delegation talking about when the overreach of Federal 
regulations.
    It seems now that we are dealing with a little bit of 
overreach from states with regards to their regulations, and 
how we deal with this in a way that is respectful to what--
where the states are coming from, but making sure that they 
understand the impact here, and, truly, I think some very 
unintended consequences that could have significant consequence 
to us.
    It kind of takes me back to a few AFNs ago, when you're out 
in the hall out there. We were pulled aside by those who were 
harvesting sea otters, harvesting those pelts, providing for a 
little bit of income for their families, but there was 
confusion with the interpretation of the regs from Fish and 
Wildlife. And what it did, was it sent a very, very chilling 
impact to those who were trying to provide for their 
families,trying to continue traditions that, again, were 
clearly allowed, but the confusion that it causes is very 
detrimental.
    So the effort that is underway today here is greatly 
appreciated. Appreciate your leadership on this. I'm not going 
to be able to stay for the whole hearing, but I'm going to stay 
for as long as my time allows me. Just thank you for that.
    Senator Sullivan. All right.
    Senator Murkowski. --opportunity to kind of horn in on your 
parade here.
    Senator Sullivan. We're glad--no, this is everybody's 
parade. We're just trying to raise awareness.
    Senator Murkowski. OK.
    Senator Sullivan. So we're very glad you're here. Well, I 
want to--as Senator Murkowski mentioned, this is an official 
Senate hearing coming to Alaska, so you don't have to travel to 
D.C. for it.
    So I really want to thank our panel of distinguished 
experts, and want to welcome Dr. Rosita Worl, President of 
Sealaska Heritage, Inc., Tara Sweeney, the Executive Vice 
President, External Affairs, Arctic Slope Regional Corporation, 
Susie Silook, an artist, a writer, who has given some great 
commentary in front of all of AFN just a couple minutes ago on 
this important topic, and Margaret Williams, the Arctic Program 
Managing Director of the World Wildlife Fund. We are very 
excited to hear from each of you.
    And I know some of you have a time limit, so Dr. Worl, if 
you want to begin your opening statement, and anything that you 
want to submit for the record, for the written record, we can 
do that, as well, before we begin questions. Dr. Worl.

          STATEMENT OF ROSITA WORL, PhD., PRESIDENT, 
                    SEALASKA HERITAGE, INC.

    Rosita Worl. (Speaks Tlingit) Honorable Senator Sullivan, 
(speaks Tlingit), Lady of the land (speaks Tlingit),
    Senator Murkowski, my name is Rosita Kaahani Worl. I 
currently serve as the president of the Sealaska Heritage 
Institute. I also serve as chair of the Alaska Federation of 
Natives Subsistence Committee.
    Sealaska Heritage Institute is a nonprofit organization 
dedicated to the preservation and enhancement of Alaska Native 
cultures with goals of promoting cross cultural preservation 
and enhancement of cultures and diversity.
    The AFN Subsistence Committee is dedicated to the 
protection of Native subsistence rights, food security, and the 
use of byproducts of wildlife resources for cultural objects, 
clothing, and arts and crafts production and sale.
    Thank you for this opportunity to offer my comments on the 
adverse impacts on Alaska Native economic self-sufficiency that 
will come from the Federal African elephant ivory ban, and that 
will result from other bans by five State laws and additional 
states that are considering a ban.
    As I understand, the Federal ban relates to an African 
elephant ivory ban, while most State laws include all ivory, 
including both old and new walrus ivory that is used by Alaska 
Natives. A number of State bans also apply to mammoth ivory, 
including mastodon that is used by both Alaska Natives and non-
Natives. I also understand that some states have included or 
have proposed to include whale, polar bear, and sea otter 
products.
    The array of Federal and State laws highlights one of the 
major problems. The differing legislation bans are confusing 
and, collectively, may serve as a deterrent to those who might 
be inclined to buy Alaska ivory art, and will only serve to 
seriously undermine the ivory art market. Suppression of the 
ivory market will be devastating to Alaska Native hunters, 
craftspeople, and artisans, and would be further disastrous if, 
in fact, whale, polar bear, and sea otter products are also 
banned.
    First, may I say--State that Alaska Natives firmly believe 
and support measures to ensure a healthy, sustainable African 
elephant population. Conservation and sustainability are values 
that are entrenched in our ancient societies that remain 
dependent on the use of natural resources for our livelihood 
and for our cultural survival.
    However, we do not believe that such measures to protect 
elephants should have an adverse impact on Alaska Native ivory 
carvers and the market for their products. I would like to 
believe that the advocates of the ivory ban that includes 
walrus, were unaware of the negative consequences on the ban--
of the ban on Alaska Natives. I would like to believe that they 
appreciate the value of cultural diversity and support this 
cultural survival of Alaska's indigenous societies.
    Rural Alaska villages are economically depressed and high 
rates of unemployment are the norm. SHI studies have 
demonstrated that out-migration of villagers to urban centers 
has been intensified in the last decade, primarily as a result 
of the lack of economic opportunities.
    There is little prospect for economic development in our 
rural remote communities. Rural villages are characterized by 
high energy and transportation costs, and lack of 
infrastructure to support economic development. The production 
and exchange of arts and crafts is an ancient tradition that 
supported vibrant and sustainable indigenous communities 
throughout Alaska. It was expanded to include the sale of arts 
and crafts with the arrival of Westerners.
    Today, arts and crafts still play an even greater role in 
village economies. Walrus ivory, including mammoth and mastodon 
ivory, are also used as creative high art expressions that are 
widely coveted in the art world.
    I must emphasize that walrus is a major food source among 
northern and western coastal communities. In some communities, 
walrus is the primary food source. Walrus skins are used to 
make skin boats that are essential for hunting and travel. Its 
ivory is also important as a source of income, but above all, 
walrus is prized for the food security provides.
    Arts and craft production and sale, including ivory, is one 
means of providing modest, but critically financial benefits to 
Natives who otherwise lack economic opportunities. While we 
lack hard data on the value of ivory production, we know that 
ivory plays a significant role in Alaska's small-scale 
subsistence economies, and the annual arts and crafts tourist 
market that is well over $32 million.
    We know that village artisans can make up to 35,000 to 
50,000 dollars annually, and that those earnings are widely 
shared among family and community members. SHI is intimately 
familiar with the benefits of the arts and craft markets to 
Native people through our sustainable arts projects that we 
have implemented, including basketry, seal skin, sea otter, and 
wood carving as a means to achieve economic self-sufficiency in 
our community.
    We have also initiated efforts to ensure that artists have 
access to ivory. When SHI first learned of the California 
initiative to ban the sale of all ivory, we immediately 
contacted various officials and lawmakers to oppose the 
legislation. Our efforts were far too late. Even if we had the 
adequate notice, it is a certainty that we could not match or 
overcome the international and national public relations and 
political efforts supported by the advocates of the ivory ban.
    The existing ivory ban by several states and a national 
ban, pose a serious threat to the survival of Native 
communities that are primarily dependent on a subsistence 
economy and the sale of arts and crafts. That ban adds to the 
ongoing threats facing Alaska Natives that is associated with 
climate change, and is increasingly evident in our coastal 
communities.
    While we support measures to ensure the survival of the 
elephant and other animals, the survival of Alaska Native 
communities must be considered. We, respectfully, offer the 
following recommendations:
    Include language in any legislation or regulations related 
to African elephant ivory that provides for an explicit Alaska 
Native exemption for legally harvested walrus and ivory, and 
ensures that the language is consistent with the Marine Mammal 
Protection Act of 1972.
    Initiate action to ensure that all State laws be consistent 
with the MMPA and provide for an Alaska Native exemption.
    Require the Indian Arts and Craft Board to develop a public 
relations effort to inform the public of Alaska Natives 
sustainable use and dependency on the sale of Alaskan ivory, 
including mammoth and mastodon and the critical role Alaska 
ivory plays in the survival of indigenous communities. (Speaks 
Tlinget).
    [The prepared statement of Ms. Worl follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    
    
    Senator Sullivan. All right. Thank you very much. That was 
outstanding testimony. I look forward to having a further 
discussion when we are discussing these issues. Mrs. Sweeney, 
thank you.

           STATEMENT OF TARA SWEENEY, EXECUTIVE VP, 
                     EXTERNAL AFFAIRS, ASRC

    Tara Sweeney. Thank you. Chairman Sullivan and Senator 
Murkowski, thank you for the opportunity to provide testimony 
today.
    My name is Tara Sweeney and I serve as the Executive Vice 
President for Arctic Slope Regional Corporation or ASRC. ASRC 
is an Alaskan Native corporation established pursuant to the 
Alaska Natives Claims Settlement Act of 1971.
    The creation of Alaska Native corporations was mandated by 
Congress as a means to promote the health, education, or 
welfare of our Alaska Native shareholders. And at ASRC, we take 
that mandate seriously. We work to go beyond promoting health, 
education, and welfare of our shareholders. We actively pursue 
and create strategic partnerships and invest in initiatives 
aimed at improving the quality of life of our shareholders.
    ASRC is the largest Alaskan owned company in the State and 
we have 10,000 employees nationwide, and approximately 13,000 
Inupiat shareholders from the North Slope region of Alaska.
    Our region is strong in its Inupiat identity, rich in 
culture, with a deep-seated tradition of subsistence, including 
the harvesting of terrestrial and marine mammals like walrus, 
which provides much-needed sustenance for our families. And 
through the lawful harvest of its ivory, it provides financial 
assistance to families in some of the most remote and 
disconnected communities in this Nation.
    I'm not an expert on African elephant ivory. And to be 
clear, ASRC does not support the unsustainable practice of 
harvesting African elephants simply for its ivory.
    But I'm not here to oppose the ban. Instead, I'm here to 
help shine a light on the unintended consequences of State laws 
that broadly ban the sale of ivory, and the unintended 
consequences of these laws on Alaska's first people.
    Since the U.S. Fish and Wildlife Service banned the 
importation of African elephant ivory, there seems to be a wave 
of cultural imperialism sweeping the country with serious 
consequences for Alaska Natives. States, compelled by animal 
welfare groups to end harvesting practices in other parts of 
the world, regardless of sustainability, are establishing by 
legislative fiat, that sales of all ivory are illegal, and 
implementing policies at the State level that adversely impact 
Alaska Native communities and obstruct the ability of Alaska 
Natives to engage in free commerce.
    As a lead--as leaders in the Senate, both Chairman Sullivan 
and Senator Murkowski, I believe it is your responsibility to 
help us draw the distinction between banned elephant ivory and 
domestic lawfully harvested walrus ivory.
    We must act to ensure that elephant ivory is not somehow 
considered to be synonymous with walrus ivory, and protect our 
hunters and artisans from being targeted for carrying on a 
sustainable and culturally and conomically valuable practice.
    We are seeing states like New Jersey and California ban all 
types of ivory, and this has real life impacts on your 
constituents. Our rural Alaska is the poster child for 
challenging economic environments. We need to support 
employment opportunities that support and sustain our 
traditional way of life and protects us from the social 
consequences of a weak economy.
    Therefore, when our rural residents and shareholders 
enhance an ivory product after the lawful harvest of walrus, 
the commerce that accompanies the sale of an Alaskan ivory 
product has meaningful impacts on the livelihoods of our 
people.
    Since 2010, ASRC alone has spent over $620,000 to support 
the small-scale and sustainable ivory art sales of our 
shareholders. This beautiful art from our region, rightfully, 
brings a premium and, yet, prices keep getting depressed 
because policy leaders have wielded a blunt weapon to fight the 
unrelated global trade in unsustainable ivory.
    This is just one example of how Federal policies impact 
Alaska Native lives. Another example can be seen in the 
confiscation of ivory seal or other marine mammal products by 
uninformed Federal officers attempting to enforce the Marine 
Mammal Protection Act.
    For example, by confiscating products at the U.S. Canada 
border, taking them from Alaska Natives who are lawfully 
traveling across the border, items that Natives can rightfully 
possess within the U.S. Since 2000, nearly 1,200 marine mammal 
products have been confiscated by the U.S. Fish and Wildlife 
Service.
    Senator Sullivan, Senator Murkowski, as always, I sincerely 
appreciate your leadership on these issues, and thank you for 
champion--championing issues like this for the Alaska Native 
community.
    I do know that you're committed to ensuring that the Alaska 
Native voice is heard at the national level, and is heard by 
Members of Congress who represent all 50 states. And it's with 
your leadership that we can carry this message throughout the 
halls of Congress and to states around the Nation that are 
trying to do the right thing, but, ultimately, are hurting our 
communities, our economy, and our way of life.
    Thank you for the opportunity to provide comments.
    Senator Sullivan. Thank you. Thank you, Ms. Sweeney. And 
thank you for the--I didn't know about the 1,200 marine mammal 
products confiscate--confiscation, which is another issue we 
will be looking at. Ms. Silook, you have a--your opportunity to 
deliver your testimony. Thank you.

            STATEMENT OF SUSIE SILOOK, LOCAL ARTIST

    Ms. Silook. Thank you, Senators, for inviting me and for me 
to be given this opportunity to speak on this issue. I didn't 
prepare anything. I've done too much writing on this and I'm, 
frankly, burned out.
    But I would just like to share a little bit of what I've 
learned along the way in our Sikuliiq Advocacy. We are an 
artist group. I'm also from St. Lawrence Island, born and 
raised. I was raised eating walrus. My father and my brothers 
are artists; I am also, of 30 years. My mother sewed, and in 
the sway, without any government aid, also working full-time 
jobs, and the subsistent thing, they raised eight of us. So I'm 
well aware of who this is impacting; it's me; it's us.
    And the old ivory on St. Lawrence Island that's in the 
ground--St. Lawrence Island is possibly the only legal place 
you can get that, because we own subsurface rights to the 
island based on rejecting the cash settlement during the Land 
Claims Settlement Act.
    And back in 1996, I worked out a grant with the tribal 
government and we're trying to address the feeling that too 
much of this resource was leaving the island without enough 
money being given back into the community.
    But as we try to work that, we realized that everyone in 
our community depends upon that seasonal activity. You know, 
even elders could do this, you know, going--because the vast 
majority of the material that's in the ground is unworked raw 
whale bone and ivory, and this is an important resource, in 
addition to the new harvesting that we do with the walrus.
    So we couldn't develop any law enforcement around that. Not 
only do we not have the--did we not have the capacity to carry 
that out, but we didn't want to make our own people criminals. 
So that old ivory is more important than people realize, and 
the old whale bone. And I just wanted to throw that out there.
    And I also want to point out walrus ivory is entirely 
distinguishable from walrus and mammoth ivory. It does not 
contain that crosshatching and it's marbled on the inside. Part 
of the argument is that they have to ban walrus ivory because 
all ivory looks alike or, you know, something to that effect. 
That's not true.
    They're saying that a lot of the illegal elephant ivory is 
coming in disguised as mammoth ivory. And there might be 
something to that, because I've never seen elephant ivory. I've 
seen mammoth ivory, but there might be something to that angle. 
But you have to remove walrus ivory from those descriptions, 
because it is visually distinguishable. It doesn't have the 
crosshatching. It's got the cracks on it. And when you open it 
up, there's a core inside that's different from the other 
ivories. But that's both new and old. Mammoth ivory, we use a 
lot, too, but, you know, in my circle, we--that's not as 
important to us as the old ivory and the walrus ivory.
    And like they've mentioned, this--they are also banning 
quail, and many artists use quail bone. I do myself, also. 
That's going to impact communities quite a bit. And I can't 
believe they're doing that. A lot of this is ancestral 
material, also from the ground, just like the mammoth; it's 
extinct. But it's almost like they're making the mammoth a 
protected species now. And this is ridiculous.
    Senator Sullivan. The mammoth has been extinct for how many 
years?
    Susie Silook. What's happening, though there's something--
happening because of the ban on mammoth ivory, there--and 
because--but because it's--China is the main--so, we are told 
anyway. I'm beginning to doubt everything I'm told. China is 
the main consumer of elephant ivory, because their middle class 
increased dramatically and that is a status symbol for them, so 
that's why there's a lot of elephant ivory there.
    And they're also saying that there was a sale back in--I 
think it was 1999, they did illegal sale of ivory--elephant 
ivory that came from food sources and--not food sources, 
elephants that died from natural causes, because many elephants 
died from natural causes in Africa.
    So they did a mass sale of these two--China and Japan, and 
then I've read differing accounts on how this spiked the 
poaching of African elephants. One report says as high as 16--
60 percent, but I've also seen like 17 percent, so it's 
unclear.
    And the--you know, when they were passing this law we 
weren't invited to the table----
    Senator Sullivan. Yes.
    Susie Silook.--you know, that Department of Interior said 
they looked at their duty to inform us and decided this would 
not affect us, so we were not invited to the table.
    Whereas, they do mention there are a few ivory artists in 
America, and they were given a voice. These are non-Native 
artists that worked with elephant ivory and they were given a 
voice. So that's a problem, that whole tribal consultation 
thing, that----
    Senator Sullivan. Yes.
    Susie Silook. And, then, you know, if this was accident--if 
this was unintentional, why then all our efforts toward Fish 
and Wildlife and President Obama have gone completely 
unaddressed?
    Senator Sullivan. Yes.
    Susie Silook. Completely. This is a president that's 
determined to be the conservation president, and he is in bed 
with these wildlife organizations that are--that's actually the 
source of these bans.
    The International Union for the Conservation of Nature, 
IUCN, they just had their major convention in Hawaii. President 
Obama gave the keynote address for that. And he is quoted in--I 
hope I get this right. There's some names I'm going to get 
wrong. There's just so much out there. It's like the United 
States Alliance of Fish and Wildlife, something along those 
effects. He created that.
    He was also there quoted as saying, we're here to eliminate 
all ivory markets worldwide. But they go further than that. If 
you look into--if you do any research into their sites, they 
want to eliminate all wildlife product markets worldwide. They 
are not going to stop at walrus ivory. And, in fact, they were 
saying they were hoping that states would drag in other animals 
into this ban.
    There are two new laws that are coming up, and I think they 
are significant when you look at the whole picture, because one 
of them is called the Native Act. You know, that's the tourism 
act for Natives. That's passing or passed.
    And then there's END. Have you heard of END? Eliminate, 
Neutralize, and Disrupt wildlife trafficking; END. That's on 
the table now. So that's another law that we are going to have 
to look at in terms of our resources.
    There really needs to be Native American representatives in 
the U.S. Fish and Wildlife, in everything that has to do with 
wildlife. You know, there--OK. I wrote--instead of writing 
something, I wrote a list of concern--a list of 
recommendations----
    Senator Sullivan. OK.
    Susie Silook. --based on all my research that could help 
with this.
    Senator Sullivan. Good.
    Susie Silook. So I'll just get to that rather than ramble.
    Senator Sullivan. Well, we'll have plenty of time for Q and 
A here, too. But if you want to get to the recommendations, 
that's perfect.
    Susie Silook. OK. CITES----
    Senator Sullivan. Yes.
    Susie Silook. --they need to develop an indigenous peoples' 
policy somehow. Any time some animal comes up that they are 
discussing, there needs to be indi--if it does concern 
indigenous people that use that as a subsistence resource, they 
need to be present and their voices heard. And I think the 
United States should write a resolution to this effect, and 
then if they don't honor that, we should pull out. That's my 
recommendation.
    Indigenous people--these wildlife organizations, the way 
that they carry out conservation, the data shows based on 
MacArthur Foundation research--there's a paper on this, 50 
pages--that many times, it results in displacement of 
indigenous people from their territorial lands, and also 
severance from their natural resources. They, then, become 
poachers of their own food sources, and encroaches on their own 
land. This happens repeatedly.
    Even when those organizations purport to adopt the United 
Nations indigenous peoples' rights, what (indiscernible) you 
know, that thing, they recognize that they haven't been doing 
the best in terms of addressing indigenous peoples' concerns, 
so they've said they've adopted that.
    But in both this recent IUCN convention in Hawaii and also 
at the CITES, I couldn't get anybody from Alaska to go. I 
tried. But ICC Can--Canadian Inuit Circumpolar Conference, they 
were at the IUCN in Hawaii, and they were treated as traitors 
to the cause when they brought up our concerns about this 
impacting our rights. So CITES----
    Senator Sullivan. Yes.
    Susie Silook. --that whole--really, it needs to be 
addressed. OK. And then, of course, U.S. Fish and Wildlife with 
the tribal consultation, I e-mailed Bruce Dale (ph). He's the 
man that attends the CITES----
    Senator Sullivan. Right.
    Susie Silook. --conventions about this issue. And I asked 
him to be responsible to our communities and to raise this--
raise awareness at CITES, the fact that all language that is--
it's like Rosita said, you know, anytime the issue of elephant 
ivory comes up, it has to be differentiated from----
    Senator Sullivan. Yes.
    Susie Silook. --walrus ivory to remove us from that--any 
association with that, because it's not--we're not poachers and 
we're not sport hunters.
    Senator Sullivan. Yes.
    Susie Silook. Well, let me talk about sports hunters for a 
minute. OK. So the elephants are listed as either--under CITES, 
they are listed as either category I or category II. Category I 
is--means that they are endangered.
    OK. So why, then, in countries where they are listed as 
category I, they are allowing sports hunting? Americans can go 
and head hunt two elephants a year. And then this ban doesn't 
necessarily ban ivory sales intraState. It does--in the State, 
if I'm getting that right----
    Senator Sullivan. Yes.
    Susie Silook. --in their states. So they can bring it to 
their State and who knows what's going to happen from there. 
They're saying they allow these kinds of trophy hunting for 
purposes of conservation in those areas where they are trying 
to protect the elephants.
    Senator Sullivan. So, Ms. Silook, can we--I'm going to get 
to Ms. Williams' testimony, and then we're going to open up for 
more questions. And then if you have----
    Susie Silook. Yes.
    Senator Sullivan.--additional comments----
    Susie Silook. No problem.
    Senator Sullivan. --is that fine?
    Susie Silook. That's no----
    Senator Sullivan. So thank you, again, very much for your 
testimony. And I think Senator Murkowski has to step out, so--
--
    Susie Silook. I did----
    Senator Sullivan. --thank you for coming. And----
    Susie Silook. If I might interrupt, I did submit my letter 
to the president as written material, so that is there also.
    Senator Sullivan. Oh, good. Well, we will submit that for 
the record here.
    [The referenced letter follows:]
   
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Susie Silook. OK. Thank you.
    Senator Sullivan. Thank you. I look forward to reading 
that. Ms. Williams.

            STATEMENT OF MARGARET WILLIAMS, PROGRAM 
                     MANAGING DIRECTOR, WWF

    Margaret Williams. Thank you, Chairman Sullivan. And thank 
you for the opportunity and thanks to members of the committee 
for this opportunity to testify today.
    I'm here representing World Wildlife Fund, the largest 
private conservation organization working internationally to 
protect wildlife and wildlife habitats. We work in more than 
100 countries and have the support of over five million members 
worldwide.
    World Wildlife Fund, otherwise known as WWF has over 40 
years of experience in elephant conservation. But we've been 
engaged in this part of the world for about 30 years; we have 
an office in Anchorage and we focus on Arctic conservation.
    We collaborate closely with many partners throughout the 
State, including Alaska Native organizations, Native 
corporations, coastal communities, and others, in Bristol Bay, 
the Bering Strait, and the Chukchi and the Beaufort Seas.
    We have great respect and appreciation for the many people 
that sub--maintain a subsistence way of life. Indeed, WWF 
recognizes that sustainable use is a powerful incentive for 
conservation, including among hunters. WWF respects and 
appreciates the work of the Eskimo Walrus Commission and the 
U.S. Fish and Wildlife Service toward their co-management 
goals.
    As you know, on June 6th of this year, the Fish and 
Wildlife Service finalized a revised 4(d) rule for African 
elephants under the Endangered Species Act that institutes a 
near total ban on commercial trade in African elephant ivory 
within the United States.
    WWF strongly supports that ruling for three reasons:

    First, we see it as critical to ensuring that the U.S. 
consumers are not engaged unwittingly or wittingly in driving 
the illegal trade of African elephant ivory. We see the Federal 
rule as essential to help spur complementary conservation 
actions by major ivory consumer nations, including China. And 
we believe that the Fish and Wildlife Service is no way a 
threat, legally, to Alaska Native carvers.
    And I'd like to come back to all of the really important 
points made here about the confusion and misunderstanding of 
the interpretation of this regulation.
    But it's important to consider the context of this recent 
Federal ban. African elephant ivory--African elephants are 
currently facing the worst poaching crisis in a generation. And 
as was mentioned, there had been a previous decline in the 
1980's. A ban on the sale of ivory was put in place, and that 
did help with the recovery of elephants.
    But in the last decade, we have seen a new and very acute 
poaching crisis emerge. Just last month, a major report of the 
International Union for the Conservation of Nature was 
released, estimating of the crash in the elephant population by 
over 100,000. Other reports estimate that, in a 3-year period, 
alone, in the last decade, up to 35 elepha--35,000 elephants 
were poached in a single year.
    African elephants have declined by two-thirds--forest 
elephants, rather, and Tanzania has seen a 50 to 60 percent 
decline of its elephants. So the problem is really at a crisis 
point.
    The illegal trade in elephant ivory is part of an eight to 
ten billion dollar tra--annual trade in illegal wildlife 
products. This trade is one of the top five transnational 
crimes globally run by sophisticated criminal syndicates that 
helps to finance industrial scale poaching and armed 
insurgencies in Africa.
    That National Intelligence Community in the U.S. has even 
connected ivory trafficking to financing for terrorist 
activities in Africa. Ivory consumption in China is the primary 
driver of illegal trade in ivory today, and China remains the 
key for stopping the growing poaching crisis facing Africa's 
elephants.
    The United States, which historically was one of the 
primary consumers of ivory products, elephant ivory that is, 
remains a destination for significant amounts of illegal ivory. 
So the Fish and Wildlife responded by issuing its revised rule 
and instituting this near total ban on commercial trade in 
elephant ivory.
    Fish and Wildlife Service has, effectively, shifted the 
burden on the seller to demonstrate that items made from 
African elephant ivory are, in fact, legal to sell under 
Federal law. And there are some exemptions, which I can explain 
in a Q and A period.
    Perhaps one of the greatest impacts of this revised rule 
has been to help spur reciprocal and complementary actions by 
other demand countries, such as China. For example, up to the 
last year, China--until the past year,
    China pointed out to the U.S. our own inadequate regulatory 
regime. And more recently, China has taken steps in following 
the U.S. actions which are aimed at phasing out its domestic 
ivory market.
    And in September of last year, the U.S. and China issued a 
joint statement on their commitment to enact a near complete 
ivory trade ban in each country, again, for elephant ivory 
only.
    Let me emphasize that the Fish and Wildlife Service has 
made explicit that the revised rule applies only to African 
elephant ivory and will not impact activities with other type 
of ivory. And, again, with additional time, I--during the Q and 
A, I could read some excerpts from the Fish and Wildlife 
material.
    So, in conclusion, African elephants are in crisis.
    U.S. con--and U.S. consumers have played an unwitting role 
in driving the African elephants into the situation. The Fish 
and Wildlife Service rule institutes this near total ban on the 
trade as an essential and reasonable response to present to--to 
prevent the U.S. from further driving the crisis.
    Fish and Wildlife Service has also made it explicit that 
the new rule should have no impact on Alaska Native carvers of 
walrus, mammoth, or mastodon ivory. WWF completely supports 
this position and encourages state governments that may be 
considering their own ivory bans, to take the Federal approach 
into consideration when crafting state-level regulations, and 
to take guidance from Alaska's walrus co-management partners, 
while engaging meaningfully with the Alaska--the Eskimo Walrus 
Commission and U.S. Fish and Wildlife Service Region 7.
    So WWF looks forward to continuing to work closely with 
Alaska Native communities on the conservation of Arctic 
ecosystems to ensure healthy wildlife populations and 
sustainable communities connected to those wildlife 
populations. Thank you, again, for the opportunity to speak.
    [The prepared statement of Ms. Williams follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
   
    
    Senator Sullivan. Well, thank you, Ms. Williams. And, 
again, I don't think anyone here is--do you have time for one 
question?
    Rosita Worl. OK.
    Senator Sullivan. Because I really want to get to an 
important question. I don't think anyone here has opposed the 
elephant ivory poaching issue.
    The purpose of the hearing is to strategize and come up 
with ideas on how we make sure that what's happening, we can 
either roll it back or prevent it from continuing, because it's 
clearly hurting Alaska Natives, Alaska citizens.
    Dr. Worl, I just wanted--you mentioned, in your testimony, 
you reached out to California, you reached out to the 
officials.
    Rosita Worl. Yes.
    Senator Sullivan. What I really want to try and get to is, 
in your experience--and any of the witnesses can jump in on 
this, but I know you have to run, and I really want to just get 
your views on this.
    Do you think that the states that are starting to implement 
this ban, this broad ban, are they doing it unintentionally? Do 
they think that, oh shoot, we made a mistake; oh, darn, we can 
fix this. Or do you think they fully know what they're doing 
and they are putting a total ban for reasons that Ms. Silook 
mentioned, which the ultimate goal here is a ban on all ivory, 
whale bone, and everything?
    So what do you think the intention is of the legislators in 
California, in New Jersey? Because I think our strategy, 
really, will depend on, are these states making a mistake and 
we just need to go explain to them and they'll fix it, or is 
that their goal anyway? And what do you think in your 
experience is happening?
    Rosita Worl. Senator, in the case of California, I think 
they were very much aware that there was Alaska Natives who use 
ivory, but they chose--they said our--it was kind of a value 
statement that we used it, and they just chose to ignore it.
    Senator Sullivan. So it wasn't a mistake?
    Rosita Worl. No.
    Senator Sullivan. They knew?
    Rosita Worl. They knew.
    Senator Sullivan. And then here's my next question to 
followup on that. Who--what are the advocacy groups--And maybe 
Ms. Williams or anyone else, what are the--which advocacy 
groups are driving the full ban? I mean, it's not you guys, is 
it?
    Margaret Williams. No. I--and I do not know the answer to 
that.
    Susie Silook. You don't? Why?
    Margaret Williams. No. Well, we're allowing 
(indiscernible). (General laughter)
    Senator Sullivan. No, it's actually a really--it's a really 
important question. We need to know this, right?
    Margaret Williams. Perhaps--I cannot speak on behalf of 
other groups, but the World Wildlife Fund is not promoting an 
all-out ban. I mean, we've tried to make it clear that we--I 
hope in my testimony I communicated that we certainly don't 
oppose--that we would like to see very clear communication 
about that exemption.
    It seems--I'm--I guess I'm also surprised that there has 
been--and I'm regretting for you that you have had such a poor 
reception on this issue from the administration, because I 
think--I've seen in the Arctic policy and the effort to really 
listen to Alaska Native communities, and with the Arctic policy 
about promoting sustainable Arctic communities.
    I think there would be a more receptive ear, maybe perhaps 
now, I don't know. But I, actually--World Wildlife Fund is not 
an animal welfare organization and we don't collaborate with 
them very closely, so I can't name which groups are promoting 
such a State ban.
    Senator Sullivan. Do you guys know?
    Rosita Worl. I don't know which one, but I will tell you 
that maybe it shows my ignorance, but I view all of the 
wildlife conservation groups about the same. We just finished 
our Sealaska land legislation, and I was just totally amazed, 
you know, at the resistance from the environmental conserva--
and, I guess, there's some difference between environmental 
conservation groups. I'm sorry, I can't make that distinction, 
because what I found is they seem to be uniformly opposed to 
just, you know, Native use of our land and resources.
    Senator Sullivan. Well, I would agree with that.
    Tara Sweeney. Sir--
    Rosita Worl. I'm sorry, I have to go.
    Senator Sullivan. OK. Thank you, again, for your testimony. 
Sorry this has run a little long, but it's very important. And 
we'll work together, all of us, on a strategy on this.
    Rosita Worl. OK. Thank you.
    Senator Sullivan. Great.
    Tara Sweeney. So, sir, just one point. It--I cannot 
remember a time in which ASRC has been aligned, 
philosophically, with an organization like WWF. I mean, this is 
historic----
    Senator Sullivan. Yes.
    Tara Sweeney. --in the sense that I'm so pleased to hear 
Margaret say that they are supportive of the sustainable 
harvest of Alaskan walrus, and then the byproducts that come 
with it, and recognizing the impact that it has on the Native 
community. To me, that's amazing.
    Senator Sullivan. Yes.
    Tara Sweeney. We've never--and we've sat at different 
hearing tables and testified on opposite ends of the spectrum 
she has with Richard Glenn (ph), with me, on different issues.
    Senator Sullivan. Yes.
    Tara Sweeney. And so as we look to the World Wildlife Fund, 
it's no secret that they have an enormous network.
    Senator Sullivan. Yes.
    Tara Sweeney. And when I'm talking about helping us 
distinguish between elephant ivory and the importance of 
Alaskan ivory to the Alaska Native community, their network is 
enormous. And, perhaps, what we can do is look for ways to 
partner with----
    Senator Sullivan. Yes.
    Tara Sweeney.--WWF to get the word out to their network, 
which, of course, could impact other State policy decisions 
down the road, and so----
    Senator Sullivan. Let me followup on that. Ms. Williams, 
would be willing to do what Mrs. Sweeney mentioned, which I 
think is a great idea, which is use your network, your guys' 
power on this issue, if there's alignment? And I think it's 
great. Actually, it's unusual in the EPW hearing like this 
where all the witnesses agree. Usually, they don't, just so you 
guys know. Normally, there's a battle. This is quite unusual, 
but it's good.
    But let me ask a related question for any and all of you. 
What more can the Federal Government do? Do you think the feds 
were also saying, hey, this is a mistake? Or do you think 
there's elements of the Federal Government who want a total ban 
as well?
    And I mention that because Secretary Jewell is here, all 
right. And if everybody who sees her in the hallways in the 
next 2 days, mentions this to her, she'll get the message. I, 
sometimes don't always think that what they tell us is what 
their real intention is. So do you think they really want to 
help us on this as well? Is that--I mean, I'll open that up to 
all three of you.
    Susie Silook. They haven't said a thing. You know, we've 
notified them. I--you know----
    Senator Sullivan. But you don't think they do?
    Susie Silook. This issue was raised in the Arctic 
Ministerial meeting that was at----
    Senator Sullivan. Yes.
    Susie Silook. --the science meeting. Gail Anagik brought 
that. You know, she got information from me and she raised that 
there. And then there's been several different ways that we've 
gotten it to the White House and there's been absolute silence 
there, as well as from U.S. Fish and Wildlife.
    She says that U.S. Fish and Wildlife has made this 
explicitly clear. The only place I see that is in some of the 
places that I have to research on the internet for. They've 
never come out publicly and said, wait a minute, people, this 
does not involve walrus ivory.
    Senator Sullivan. So you think they're being a little 
passive?
    Susie Silook. No. They're entirely ignoring us at this 
point. I have yet to see----
    Senator Sullivan. Worse than passive?
    Susie Silook. --any action from them on this issue; none.
    Senator Sullivan. OK. Do you agree----
    Margaret Williams. They----
    Senator Sullivan.--with that, Ms. Williams.
    Margaret Williams. Sure. Chairman Sullivan and to my 
esteemed colleagues, I just wanted to thank Tara for 
recognizing that. And I do think we're very much on the same 
page.
    And just for the record, I--I'm sorry that the--most of the 
people who left, because I think the World Wildlife Fund is--
works very collaborative with many communities. We support 
subsistence harvest in the sustainable way. We recognize how 
important that livelihood is for nutrition and food security 
and culture.
    And, I, myself, have been beneficiaries of many hospitable, 
generous hosts around the Arctic. So I really feel that it's--
WWF is distinguished and many other conservation groups share 
that--the philosophy that conservation use--sustainable use is 
an incentive for conservation.
    So--but I--just maybe I could read something from Fish and 
Wildlife published materials because I--it does actually 
specify the issue of exemptions.
    So according to the agency's published materials, the rule 
regulates only African elephants and African elephant ivory. 
Asian elephants and parts or products from Asian elephants, 
including ivory, are regulated separately under the ESA.
    Ivory from marine species, such as walrus, is also 
regulated separately under the Marine Mammal Protection Act, 
and I think that's very important that MMPA is a key here.
    Ivory from extinct species, such as mammoths, is not 
regulated under statutes. So it, specifically, says that ivory 
from mammoth is not regulated under statutes implemented by the 
service. So I think there is a lot of misunderstanding.
    Senator Sullivan. Well, let me ask this.
    Margaret Williams. OK.
    Senator Sullivan. I don't want to be disrespectful here, 
but just to--we're limited on time. What more can the Federal 
Government--what more can Secretary Jewell--what more can Dan 
Ash--it's one thing to put out a notice in the code of Federal 
regulations and nobody reads it. It's another thing that we 
know that it's already negatively impacting a very important 
element of the Alaska economy and cultural life.
    What more do you three recommend that the Federal 
Government--the Federal agencies--I'm certainly going to raise 
this her and Dan Ash, the Director of Fish and Wildlife 
Service, on the negative impact. But what more do you think 
they can be doing to proactively help us, or do you think that 
they're not that interested? It sounds like the President Obama 
statement makes it sound like he might have a goal of banning 
all ivory or something along those lines, which I think would 
be very----
    Susie Silook. All----
    Senator Sullivan.--disappointing.
    Susie Silook. All countries in Africa that are part of 
CITES, they have to come up with these things called the 
National Ivory Action Plans, NIAPs. And they're identified as 
either source transit or destination. And depending on what 
they are, depends on what the creation of that particular NIA--
(cell phone rings) I'm sorry about my phone--will be--the plan 
will be in their country, because we were not identified as a 
source country, even though we are.
    We don't get that plan and we don't get that funding. We 
need a National Ivory Action Plan for the United States for 
walrus ivory.
    Senator Sullivan. OK.
    Susie Silook. And so this provides for capacity building 
for--in this case, we should have someone who is always looking 
at the new laws that are coming up, and also what the wildlife 
organizations are emoting through their e-mail systems----
    Senator Sullivan. Yes.
    Susie Silook. --mass e-mail system for the mass public to 
do. They use these behavioral--these--President Obama mentioned 
this also. We're going to change behaviors. If you go into 
TRAFFIC, T-R-A--you know, it's capital letters and it's 
affiliated with like IUCN and all these other people. They 
menti--they show you how you can change people's behaviors. 
It's a science.
    OK. They're applying that because I started getting e-mails 
from them. They're turning the public--this is the other part 
of it. They're turning the American public against wildlife 
products, without any education on--
    Senator Sullivan. Yes.
    Susie Silook. --the complex nature of some these--and I 
hate using that term, even, anymore, you know, wildlife 
products, you know. And then we're mentioned as being ecosystem 
people, you know, in some of their literature, like we're the 
other, you know.
    So there needs to a National Ivory Action Plan for Alaska 
Native people. It needs to be funded, fully funded so that we 
can do a mass educational campaign nationally. And that should 
include posters like some of these other countries, posters at 
seaports, airports. We need training. The seal products are 
being confiscated out of San Francisco. The seal products are 
totally legal for us, but they're being confused with the EU 
bans on the seal products.
    So that points to a need to train----
    Senator Sullivan. Yes.
    Susie Silook. --security personnel.
    Senator Sullivan. That's Federal agents doing banning.
    Susie Silook. Right. And also tourist personnel, so 
there's--and they've also trained prosecutors and police in 
some of these countries, you know. So, you know, there needs 
to--that needs to happen. I have it written down.
    Senator Sullivan. Mrs. Sweeney, do you have any other 
recommendations on Federal actions right now----
    Tara Sweeney. Actually, I do.
    Senator Sullivan.--agency actions?
    Tara Sweeney. I have two, the first being, yes, if 
Secretary Jewell is here, it's important for the Department of 
Interior to come out and make a statement----
    Senator Sullivan. Yes.
    Tara Sweeney. --that----
    Senator Sullivan. Make a statement.
    Tara Sweeney. --this ban does not apply to walrus ivory, 
and recognize the importance that this is having on the Alaska 
Native community. That's my first recommendation.
    And before--Margaret, thank you for letting me jump in. The 
second is, we need to take a hard look at the Marine Mammal 
Protection Act and the restrictions that Act has on the 
transportation or importation of marine mammals for Alaska 
Natives that are going across the Alaska--the Canadian/U.S. 
border. So many times, we have had things confiscated, and 
there has got to be a better way than applying for a permit 60 
days out.
    Senator Sullivan. Right.
    Tara Sweeney. If you're on the Alaska side and you're going 
over to Canada for an Inuit Circumpolar Conference, in Inuvik, 
you have no idea whether or not you are going to receive a gift 
like a seal skin binder or a seal skin purse. And you run the 
risk of either becoming a criminal when you bring it back into 
the country or having it confiscated, because you didn't apply 
for a permit 60 days out.
    Senator Sullivan. Yes.
    Tara Sweeney. The process inside the U.S. Fish and Wildlife 
Service with respect to Alaska Natives and the possession of 
items and the Marine Mammal Protection inside--contained in the 
Marine Mammal Protection Act, severely impact Alaska Natives. 
And I welcome the opportunity to work on that issue with you.
    Senator Sullivan. Great, thank you. And, Ms.
    Williams, did you have a----
    Margaret Williams. Sure. Yes, I have a recom----
    Senator Sullivan.--what the feds can do more?
    Margaret Williams. I have a recommendation. Well, I think 
in terms of communicating to other agencies, just an additional 
measure might be communicating through the Arctic Executive 
Steering Committee, because there are representatives, senior 
representatives from all of the agencies, NOAA, BLM, BIA, DOE. 
And you actually had the executive director of that Executive 
Steering Committee today here this morning, Mark Brzezinski. So 
if he's still around, I wouldn't be surprised if he'd be 
willing to help.
    And I think there's another opportunity with a new regional 
director from Fish and Wildlife Service who is returning from 
Alaska after spending many years living here----
    Senator Sullivan. Yes.
    Margaret Williams. --and I think would be--I just think it 
would be good to speak with him. And just one point I did want 
to raise. WWF works with TRAFFIC, and, actually, TRAFFIC 
published a report a couple of years ago on the trade of walrus 
and concluded that the international trade is not a threat to 
walrus. And so it's not even a conserva--we do not see trade of 
walrus ivory as a conservation issue, so I just wanted to 
clarify that that's----
    Senator Sullivan. And so just to clarify, would you--would 
WWF help with getting the word out----
    Margaret Williams. Yes.
    Senator Sullivan.--to your members----
    Margaret Williams. We'd be glad----
    Senator Sullivan.--on this issue, because you have a 
powerful network?
    Margaret Williams. We'd be glad to clarify. Yes, we would 
be glad to clarify the meaning of this ban and the importance 
of this----
    Tara Sweeney. Good, that would be great.
    Senator Sullivan. Well, let me ask a final question. 
Everybody has been very patient. We've--we're about out of time 
here. I just want Ms. Silook and Ms. Sweeney, just the impacts 
that are happening already.
    Are you seeing any lessening of demand of your artwork, 
which I know is world renowned? Are you seeing a lessening of 
that in--are you seeing kind of in the cash economy and some 
the economic benefits--I mean, some of the numbers that were 
mentioned by Dr. Worl and others about, that's a lot of money, 
30 to 50 thousand dollars annually, 32 million. Are you seeing, 
already, a negative impact, either on demand for your products 
or more broadly, kind of village economies that are being 
negatively impacted already?
    Tara Sweeney. Yes, I'm happy to. When you look at products 
that can range from $80 to 8,000 or 10,000 dollars of those 
contributions to a family economy is extremely important.
    Senator Sullivan. Enormous.
    Tara Sweeney. In rural Alaska, where we all know it's 
extremely high, there's an extremely high cost of living, $80 
or $8,000 is enormous.
    Senator Sullivan. Yes.
    Tara Sweeney. And when you have a negative connotation of 
ivory----
    Senator Sullivan. Yes.
    Tara Sweeney. --and walrus and Alaska ivory is being lumped 
in with elephant ivory, it has an impact on the demand for the 
product. Whether or not tourists, when they come to your 
community, will engage in trade----
    Senator Sullivan. Yes.
    Tara Sweeney.--or a commercial activity with you because of 
this, and that's extremely, extremely concerning to 
anorganization like ASRC. And so, at any point in time, that we 
can advocate on behalf of the rights of, not only our 
shareholders,but all Alaska Natives engaged in this art, we're 
going to be there at the forefront.
    And one thing I have to say is, Susie, she has made some of 
the most amazing and beautiful pieces of art.
    Senator Sullivan. I know.
    Tara Sweeney. And we have a collection at ASRC that is in 
our permanent collection, so for organizations who usually 
request contributions for ivory carvings for their efforts, the 
edict inside our organization is, none of the Susie pieces of 
ivory will ever be donated; they're part of our permanent 
collection on display.
    Susie Silook. Yes.
    Senator Sullivan. Have you seen--and, look. One of the 
things I'm getting out of this is--I'm very worried about, if 
there is an ulterior motive to just ban ivory. And we have to 
really fight back against that; all of us. I think all of us.
    Susie Silook. So I----
    Senator Sullivan. Including WWF, but everybody. But are you 
seeing a lessening of demand for your art already?
    Susie Silook. I haven't done much art. I've been working on 
this issue for the last--almost--since March of this year. But 
one gallery that I deal with in Seattle, they've stopped 
dealing with ivory and whale bone and any other Alaskan 
materials, because of these bans.
    Senator Sullivan. Geez.
    Susie Silook. So that's them----
    Senator Sullivan. And this is not even--there is no ban in 
Washington State yet.
    Susie Silook. No. But I've also done some outreach through 
our advocacy to shops in Alaska, and--OK, so there's one in 
Nome and, you know, he helps out the Bering Straits Region. 
That's the biggest area for ivory artwork, Bering Straits 
Region. And every year, he would go to the Marin show in 
California, and that's where he would get most of his revenue 
to continue his business.
    And it's an old business. But the last 4 years, he's seen 
sales steadily drop off because of the threat of the bans and 
then the actual ban. So this year, he didn't even bother going, 
because he--nobody is buying ivory, he said. His brother said, 
everybody is freaking out; nobody is buying ivory. You know, 
they don't care what you tell them. It's how it is.
    So since then, he's gotten calls from villagers, you know, 
he told me, from in that region, and he's had to tell them, no, 
I can't buy your work because I didn't make any money in 
California at the Marin show. So there's him.
    And then there's a shop, Two Spirits. Is it Two Spirits in 
Anchorage? You know----
    Unidentified Audience Members. Yes, yes.
    Susie Silook. Yes, at Two Spirits, she represents like 200 
artists. And this is Native-owned shop. And so I spoke with her 
and she makes most of her money at WEIO, World Eskimo Indian 
Olympics; yes, WEIO. And this year, 50 percent of her market--
it was down 50 percent in her market, and that's where she 
makes most of her money.
    But there's other--you--I've talked to a lot of different 
shop owners, and some of them say, the younger generation, when 
they hear it's ivory, they don't recognize that it's walrus 
ivory; they just turn their back, because they've been 
influenced by----
    Margaret Williams. Don't blame me.
    (General Laughter)
    Susie Silook. I don't want to (indiscernible laughter)--by 
wildlife organizations that make no distinction in----
    Senator Sullivan. Yes.
    Susie Silook. --in their emotive e-mails, you know. So 
there's them. And, yes, sales are down.
    Senator Sullivan. OK. Well, listen, I want to thank 
everybody. I want to thank everybody who attended today. This 
is a very important issue and the--our witnesses, thank you. 
Your guy--your testimony was very illuminating.
    And what we're going to do, we will work with all of you--
all of you on exactly what we're talking about. We can't let 
this get to the point where the ulterior motive of some--and 
I'm sure it's out there--banning all ivory, which would 
actually hurt conservation, by the way. We can't allow that 
happen.
    So we will continue to work on this. I have a lot of ideas. 
We want to work with you, but thank you, again.
    And, again, this hearing will be open for the record for 
two more weeks, and Pierce can, again, hand out his e-mail 
address for additional testimony. I want to thank the 
witnesses. I want to thank everybody who attended on this 
important issue.
    We will be sure to followup and fight back and push back on 
something that's really threatening our economies in the Native 
Alaskan culture here in our great State.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
       

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
